HINKLE SHANOR LLP
ATTORNEYS AT LAW
P.O. BOX 2068

SANTA FE, NEW MEXICO 87504
505-982-4554
(FAX) 505-982-8623

Ellen S. Casey, Partner
ecasey@hinklelawfirm.com

hinklelawfirm.com

August 19, 2019
Via U.S. Mail
Scott S. Harris
Clerk of the Court
Supreme Court of the United States
1 First Street, NE
Washington, DC 20543
Re:

Jagdish C. Laul v. Los Alamos National Laboratories, No. 19-178

Respondent Los Alamos National Security, LLC (“LANS”), respectfully requests a 30-day
extension of time in which to file its response to the petition for writ of certiorari filed by Petitioner
and received by undersigned counsel on August 8, 2019. The current due date for LANS’ response
to the petition is September 9, 2019. A 30-day extension would create a new due date of October
9, 2019. As demonstrated below, this request is not made for the purpose of delay, but is necessary
so that LANS counsel may review the petition and provide a thorough response.
LANS has been represented by Hinkle Shanor LLP throughout this litigation. The Hinkle
Shanor attorneys responsible for the summary judgment and Tenth Circuit appellate briefing in
this matter are unavailable until late September. Lead counsel, Ellen Casey, is currently out of
state caring for her elderly mother and will not be back in the office until late September. Hinkle
Shanor attorney Jaime Kennedy, who also worked extensively on the Laul briefing, will be out of
the country on a long-planned vacation for the first two weeks of September. The presence and
input of these two attorneys is critical for LANS’ ability to fully respond to the Petition received
on August 8, 2019.
Counsel for Petitioner Jagdish Laul has been contacted and does not oppose the requested
extension.
Sincerely,
/s/ Ellen S. Casey
Ellen S. Casey
cc: Trace Rabern (via email)

